           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




  PERFORMANCE INDICATOR AUDIT:
       CLAIMS PROCESSING


     March 2007   A-15-06-16109




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:      March 16, 2007                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Claims Processing (A-15-06-16109)


           We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 15 of the Social
           Security Administration’s performance indicators established to comply with the
           Government Performance and Results Act. Attached is the final report presenting the
           results of two of the performance indicators PwC reviewed. For the performance
           indicators included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over data
               generation, calculation, and reporting processes for the specific performance
               indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and are not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in the Fiscal Year 2006
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

           This report contains the results of the audit for the following indicators:
           •   Average processing time for initial disability claims.
           •   Number of initial disability claims processed by the Disability Determination Services.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                             Patrick P. O’Carroll, Jr.
           Attachment
MEMORANDUM

Date:      March 6, 2007

To:        Inspector General

From:      PricewaterhouseCoopers LLP

Subject:   Performance Indicator Audit: Claims Processing (A-15-06-16109)


OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer
              processed data. Data are reliable when they are complete, accurate,
              consistent and are not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in the Fiscal Year (FY)
              2006 Performance and Accountability Report (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.

1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: Claims Processing (A-15-06-16109)                                       1
BACKGROUND

We audited the following performance indicators as stated in the SSA FY 2006 PAR:

             Performance Indicator                   FY 2006 Goal     FY 2006 Reported
                                                                           Results
    Average Processing Time for Initial
                                                         93 days          88 days
    Disability Claims
    Number of Initial Disability Claims
    Processed by the Disability                        2,663,000         2,532,264
    Determination Services (DDS)

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI)
and Supplemental Security Income (SSI) programs. The OASI program, authorized by
Title II of the Social Security Act, provides income for eligible workers and for eligible
members of their families and survivors. 5 The DI program, also authorized by Title II of
the Social Security Act, provides income for eligible workers who have qualifying
disabilities and for eligible members of their families before those workers reach
retirement age. 6 The SSI Program, authorized by Title XVI of the Social Security Act,
was designed as a needs-based program to provide or supplement the income of aged,
blind, and/or disabled individuals with limited income and resources. 7

To determine eligibility for both Title II and Title XVI programs, applicants must first file a
claim with SSA. This is typically accomplished through an appointment in one of SSA’s
approximately 1,300 field offices (FO), through the SSA telephone network, or online via
the Internet Social Security Benefit Application. Interviews with the applicants are
conducted by FO personnel via the telephone or in person to determine the applicants’
non-medical eligibility. If the applicant is filing for benefits based on disability, basic
medical information concerning the disability, medical treatments, and identification of
treating sources (e.g. a Doctor's office) is obtained.

FO personnel input the applicant’s information into the Modernized Claims System
(MCS) for OASI and DI claims or the Modernized SSI Claims System (MSSICS) for SSI
claims. This establishes the application and/or protective filing date of the claim. A
relatively minor number of OASI and DI claims are input through the SSA Claims
Control System (SSACCS). SSACCS is used to process claims that cannot be fully
processed through MCS. For example, when a Title II record is established, the MCS
application allows for entry of up to 11 claimants on the specific record. Additional
claimants to a single MCS record would need to be recorded on SSACCS. DI and SSI
disability claims are sent to the State DDS office for review of medical information and


5
    The Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.
6
    Id.
7
    The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.


Performance Indicator Audit: Claims Processing (A-15-06-16109)                                2
determination of the receipt of benefits. The State DDS offices input case
determinations into the National Disability Determination Services System (NDDSS).

RESULTS OF REVIEW
Our assessment of the two indicators included in this report did not identify any
significant exceptions related to the accuracy of presentation or disclosure of the
information related to these indicators in the FY 2006 PAR or to the meaningfulness of
these indicators.

Our assessment of the two indicators included in this report identified an issue with
internal controls that affected the data reliability. Specifically, for both indicators
included in this report, we noted that SSA systems personnel had direct data access,
therefore the data used to calculate the performance indicator could be inappropriately
modified which could impact the results of the performance indicator.

For the indicator "Average Processing Time for Initial Disability Claims," weaknesses
were found in the configuration of the UNIX operating system and Oracle database that
contains information used to calculate the performance indicator results. The
weaknesses noted do not impact the internal controls over this performance indicator,
but rather are noted as instances of non-compliance with SSA's Risk model
configuration standards.

For both indicators included in this report, we noted that an audit trail for transactions
processed through the SSACCS application did not exist.

Average Processing Time for Initial Disability Claims

Indicator Background

When determinations are made for DI claims, SSA personnel update the corresponding
MCS records and the Work Management System (WMS). Claims data for those claims
that cannot be processed through MCS is maintained in SSACCS. After the award or
denial has been processed, both WMS and SSACCS transfer this claims data to the
Title II Operational Datastore (TII ODS). The data is then sent to the Social Security
Unified Measurement System (SUMS) Data Warehouse, and stored in the Title II
Processing Time (TIIPT) module.

When determinations are made for SSI claims, SSA personnel update the
Supplemental Security Record (SSR), and claims data is forwarded to the SSI
Exception Control System. This system ensures the claims data, either the award or
denial, is complete before the data is sent to the Title XVI Operational Datastore (TXVI
ODS). The data is then sent to the SUMS Data Warehouse, and stored in the SSI
Processing Time (SSIPT) module.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                               3
Queries are used to obtain the processing time data for both Title II and Title XVI
disability claims, on a monthly and fiscal year-to-date basis. The results of these
queries are combined to determine the monthly and fiscal year-to-date average
processing time for all disability claims (Title II and Title XVI). These figures are then
posted to the SSA Intranet. Refer to the following formula.

Performance Indicator Calculation

                                                     Total Processing Time for DI and SSI
                                                               Disability Claims
Average Processing Time for              =            ____________________________
   Initial Disability Claims
                                                    Total Claims Processed for DI and SSI
                                                                  Disability

Further, processing time is measured from the application date or protective filing date
to either the date of the denial notice or the date the system completes processing and
awards the payments.

Findings

Internal Controls and Data Reliability

We found 56 systems personnel had the "All" access designation within the Top Secret
security software to the NDDSS datasets used to calculate the indicator results. This
level of access allows users to create, delete and modify any of the data (or datasets)
contained within the datasets we reviewed. Therefore, the data used to calculate the
performance indicator could be inappropriately modified and could impact the results of
this performance indicator. This level of access prevents SSA from ensuring the
integrity of this production data. By allowing systems personnel to have the "All" access
designation, SSA is not conforming to the revised Office of Management and Budget
(OMB) Circular A-130, Management of Federal Information Resources, Appendix III,
Security of Federal Automated Information Resources, principles of "least privileged
access" or segregation of duties. 8 It should be noted that this access was removed
during the course of the audit. While we were able to recalculate the interim and year-
end indicator results, as a result of this issue, we could not consider the data to be
reliable.

We also found an audit trail for transactions processed through the SSACCS was not
created or reviewed. This could prevent management from reviewing and identifying
inappropriate or unauthorized transactions being processed through SSACCS.



8
 SSA is currently implementing the Standardized Security Profile Project to address the principle of “least
privileged access” for users with access to mainframe datasets.


Performance Indicator Audit: Claims Processing (A-15-06-16109)                                            4
Finally, our review of the SUMS Data Warehouse UNIX system and Oracle database
identified 10 security and compliance issues. This review was conducted against the
SSA developed UNIX Risk Model configuration standard, National Institute of Standards
and Technology (NIST) guidelines 9 and the Defense Information Security Agency
(DISA) Security Technical Implementation Guides (STIGS). 10 We identified nine
exceptions to the requirements of the SSA UNIX Risk Model. During our review of the
Oracle database, we were informed that SSA management has not formally approved
the configuration standard (risk model) for the Oracle database environment.

We did not identify any significant exceptions related to the disclosure of the information
related to this indicator contained in the PAR, or to the meaningfulness of this indicator.

Number of Initial Disability Claims Processed by the Disability Determination
Services (DDS)

Indicator Background

The performance indicator measures the number of DI and SSI disability initial claims
that have been reviewed by DDS personnel. DDS personnel are responsible for
determining claimants' disability and ensuring that adequate evidence is available to
support the determination. Upon determining an applicant's non-medical eligibility
status, SSA sends the DI and SSI initial claims file to the DDS. When a disability
determination is made by DDS personnel, the decision is entered into the NDDSS and
the case is noted as closed. The data within NDDSS is automatically transferred to the
Disability Operational Datastore (DIODS). The total number of processed (or cleared)
initial disability claims are reported as of September 29, 2006 on the State Agency
Operations Report (SAOR), generated from DIODS. Refer to the formula below.

Performance Indicator Calculation

                                                      Total Workloads of Initial Claims
    Total Claims Processed for Title II
                                                =     Clearances as of September 29,
              and Title XVI
                                                      2006

Findings

Internal Controls and Data Reliability

The DIODS data used to classify the disability claims as clearances was not archived
and maintained in accordance with revised OMB Circular A-123, Management’s
Responsibility for Internal Control, Appendix A: Internal Control Over Financial
Reporting. OMB Circular A-123 requires agencies to ensure that documentation of

9
    The NIST guidelines 5153 Section 3.2.2 and 800-18 Section 6.MA.2 were used to perform the review.
10
     The DISA STIGS Security Checklist version 4R4, Section 3.8 was used to perform the review.


Performance Indicator Audit: Claims Processing (A-15-06-16109)                                          5
significant events is readily available for examination. SSA management stated that the
detailed data was not maintained due to limited data storage space and lack of
personnel resources. Therefore, we performed alternative testing procedures to assess
the reliability of the indicator data presented in the PAR.

SSA was able to provide a copy of the code used to generate the indicator results for
our review. We concluded that the code was designed to calculate the indicator results
as described by SSA management. In addition, we selected numerous cases from
DIODS, and compared the case information to the corresponding records in the SSR
and MBR. This testing was performed to ensure the accuracy of the data when it was
transferred from the MBR or SSR to DIODS. Also, this testing did not result in any
exceptions. Lastly, we were able to observe the final calculation of this indicator on a
real-time basis. We compared the final reported results of this indicator as reported in
the PAR with the final data recorded on the SAOR report (which includes final indicator
results). We identified no exceptions with this testing.

As a result of these tests, we are reasonably comfortable that the data reported in the
PAR for this indicator are complete, accurate, and consistent. However, the data
cannot be considered reliable as the potential for inappropriate alteration existed during
the timeframe that systems personnel had update access to NDDSS datasets.

We noted that an audit trail for transactions processed through the SSACCS application
did not exist and SSA systems personnel had direct data access to NDDSS that would
allow them to update production performance indicator data. The details of these
findings are discussed in the findings section of the indicator "Average Processing Time
of Initial Disability Claims."

We did not identify any significant exceptions related to the meaningfulness of this
indicator or disclosure of the information related to this indicator contained in the PAR.

RECOMMENDATIONS
We recommend SSA:

   1. Ensure personnel do not have the ability to directly modify, create or delete the
      datasets used to calculate the results of these indicators.

   2. Maintain an audit trail for SSACCS that captures the user identification, terminal,
      date and time the transaction was processed. Policies and procedures should be
      implemented requiring a review of the audit trail for inappropriate access or
      processing of transactions. In lieu of making these changes to SSACCS, SSA
      should ensure that the SSACCS replacement system is configured with the
      appropriate audit trail controls.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                               6
Specific to the performance indicator, “Average Processing Time for Initial Disability
Claims" we recommend SSA:

   3. Ensure that the SUMS Data Warehouse UNIX system is configured to be in
      compliance with the SSA UNIX Risk Model and Government guidelines from
      NIST and DISA. SSA should also formalize the configuration standard for the
      Oracle database environment and ensure that this standard complies with the
      SSA Security Handbook, Government guidelines, and is officially approved by
      SSA management.

Specific to the performance indicator, “Number of Initial Disability Claims Processed by
the DDS" we recommend SSA:

   4. Maintain the detailed data used to calculate the performance indicator results
      that are reported in the PAR.

AGENCY COMMENTS
The Agency agreed with two of our recommendations (numbers 1 and 3) and disagreed
with two recommendations (numbers 2 and 4). With regard to recommendation 2, SSA
stated that since SSACCS will be phased out, it is cost-prohibitive to maintain an audit
trail for this system’s transactions. Also, based on the Agency’s comments, we are
withdrawing recommendation number 4. See Appendix D for the full text of the
Agency’s comments.

PWC RESPONSE
We appreciate the Agency’s comments and consideration of our recommendations. In
regard to recommendation number 2, PwC was not provided any documentation
detailing the timeframe for the "phase out" of SSACCS. As such, PwC continues to
recommend that SSA maintain an audit trail for SSACCS since this data is used for
calculation of the indicator results. However, in lieu of making these changes to
SSACCS, SSA should ensure that the SSACCS replacement system is configured with
the appropriate audit trail controls.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                             7
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Claims Processing (A-15-06-16109)
                                                                     Appendix A
Acronyms
 DDS          Disability Determination Service
 DI           Disability Insurance
 DIODS        Disability Operational Datastore
 DISA         Defense Information Security Agency
 FO           Field Office
 FY           Fiscal Year
 GPRA         Government Performance and Results Act
 ISBA         Internet Social Security Benefit Application
 MBR          Master Beneficiary Record
 MCS          Modernized Claims System
 MSSICS       Modernized Supplemental Security Income System
 NDDSS        National Disability Determination Services System
 NIST         National Institute of Standards and Technology
 OASI         Old-Age and Survivors Insurance
 PAR          Performance and Accountability Report
 SAOR         State Agency Operations Report
 SSA          Social Security Administration
 SSACCS       Social Security Administration Claims Control System
 SSI          Supplemental Security Income
 SSIPT        Supplemental Security Income Processing Time
 SSR          Supplemental Security Record
 STIGS        Security Technical Implementation Guides
 SUMS         Social Security Unified Measurement System
 TII ODS      Title II Operational Datastore
 TIIPT        Title II Processing Time
 TSC          Teleservice Center
 TXVI ODS     Title XVI Operational Datastore
 U.S.C.       United States Code
 WMS          Work Measurement System




Performance Indicator Audit: Claims Processing (A-15-06-16109)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
       General and other reports related to SSA’s GPRA performance and related
       information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the manual controls within and surrounding
       each of the critical applications to determine whether the tested controls were
       adequate to provide and maintain reliable data to be used when measuring the
       specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metrics of key performance indicators to ensure mathematical
       accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators appear to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                        B-1
AVERAGE PROCESSING TIME FOR INITIAL DISABILITY CLAIMS

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
           Completed application control reviews over the National Disability
              Determination Services System (NDDSS), Title II Operational Datastore,
              Title XVI Operational Datastore, and the SSA Unified Measurement
              System (SUMS) Data Warehouse. An application control review includes
              testing access controls, data input, data output, data rejection, and data
              processing, as applicable.
           Completed reviews for the SUMS Data Warehouse UNIX system and
              Oracle database.
   •   Determined the adequacy of the programming logic used by SSA to calculate the
       average processing time for initial disability claims.
   •   Recalculated the indicator for Fiscal Year 2006 and compared it to the number
       reported in the Performance and Accountability Report (PAR).

NUMBER OF INITIAL DISABILITY CLAIMS PROCESSED BY THE
DISABILITY DETERMINATION SERVICES (DDS)

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
             Completed application control reviews over the NDDSS and the Disability
                Operational Datastore (DIODS). An application control review includes
                testing access controls, data input, data output, data rejection, and data
                processing, as applicable.
   •   Performed a comparison of data from the summary data from the State Agency
       Operations Report and the Master Beneficiary Record (MBR) and Supplemental
       Security Record (SSR) to ensure accuracy and completion of the transfer of files
       from the MBR and SSR, through NDDSS and into DIODS.
   •   Determined the adequacy of the programming logic used by SSA to calculate the
       initial disability claims processed.
   •   Traced data from supporting reports to the indicator calculation total included on
       the PAR.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                         B-2
                                                                                                                                                                                                                          Appendix C
Flowchart of Average Processing Time for Initial Disability Claims
                                 Claimant contacts SSA
                                via Field Office (FO ) visit ,                                                            FO interviews
                                mail , phone call to FO or                                                                 claimant via                 Is claimant
                                                                            Can the FO
                                   Tele -Service Center                                                                  teleclaim or in -         potentially eligible                   Does claimant
           START                                                        personnel interview              Yes                                                                 No                                    No           STOP
                                 (TSC ), or online via the                                                           office appointment ,           for Title II and /or                 insist on filing ?
                                                                        the claimant today ?
                                 Internet Social Security                                                             first verifying non -              Title XVI ?
                                    Benefit Application                                                                 medical issues .
                                          (ISBA ).

                                                                                No
                                                                                                                                                                           Yes
                                                                        Set up a teleclaim
                                                                            or in -office
                                                                          appointment .

                                                                                                  Yes


        Establish Disability Insurance (DI )
                                                                                                                                        If possible , make and
      application using Modernized Claims                                                           Determine
                                                                                                                                           enter non -medical
          System (MCS ) or Modernized                             Review non -                    effective filing                                                          Is this a non -                    A
                                                                                                                                        decision into MCS or                                          Yes
      Supplemental Security Income Claims                        medical issues .                      date .                                                              medical denial ?
                                                                                                                                              MSSICS or
        System (MSSICS ) or SSA Claims
                                                                                                                                               SSACCS .
           Control System (SSACCS ).


                                                                                               No

                                                                                                                                                                                      If medical
                                 Send folder to the                     DDS inputs receipt of                    NDDSS receives                    DDS gathers and               information is not
                                                                                                                                                                                                                   DDS makes a decision
        Create medical               Disability                            case in National                           claimant                     reviews medical                   sufficient , a
                                                                                                                                                                                                                   and enters the medical
       folder with Form           Determination                        Disability Determination                  information from                  Evidence to make                 Consultative
                                                                                                                                                                                                                   information in NDDSS .
           SSA -831 .             Service (DDS ).                         Services System                        MCS , MSSICS or                   a medical                       Examination is
                                                                               (NDDSS ).                             SSACCS .                       determination .                  scheduled .




                                                                                                                                                                                                                                 B (Title
                               Claim is approved                     Case is closed in                                                                                                                                              II )
      DDS inputs                                                                                                                              Did FO input the non -
                               or denied . Medical                    NDDSS , which
    medical decision                                                                                  Folder is sent back                     medical determination
                                  portion of the                      interfaces with                                                                                         Yes          Folder is filed .
     as reported on                                                                                         to FO .                           prior to sending folder
                                    decision is                      MCS , MSSICS ,
    Form SSA -831 .                                                                                                                                   to DDS ?
                                   adjudicated .                      and SSACCS .                                                                                                                                               C (Title
                                                                                                                                                                                                                                  XVI )

                                                                                                                                                        No


                                                                                                                                                 Adjudicate non -
                                                                                                                                                medical portion of
                                                                                                                                  A
                                                                                                                                                claim via MCS or
                                                                                                                                                    MSSICS .




Performance Indicator Audit: Claims Processing (A-15-06-16109)                                                                                                                                                                              C-1
Flowchart of Average Processing Time for Initial Disability Claims Cont.
                        B (Title                                                                                                     C (Title
                           II)                                                                                                        XVI )



                                                                                                                              Supplemental Security
               MCS updates Workload
                                                                                                                            Record (SSR ) is updated
                Management System
                                                                                                                           with an initial determination
             (WMS ). SSA -1418 (screen )
                                                                                                                          date and claim data is routed
             updates SSACCS with claim
                                                                                                                            to SSI Claims Exception
                     information .
                                                                                                                                 Control System .


                                                                                                                                Data is fed to the
                  Data is fed to the
                                                                                                                                    Title XVI
                 Title II Operational
                                                                                                                                  Operational
                    Datastore (TII
                                                                                                                                Datastore (TXVI
                         ODS ).
                                                                                                                                      ODS ).




                  Data flows to the                                                                                             Data flows to the
                   Social Security                                                                                               Social Security
                Unified Measurement                                                                                           Unified Measurement
                  System (SUMS ).                                                                                               System (SUMS ).




                TII Processing Time                                                                                           SSI Processing Time
               (TIIPT ) is stored in the                                                                                       (SSIPT ) is stored in
                     SUMS Data                                                                                                   the SUMS Data
                     Warehouse .                                                                                                   Warehouse .




                                                                        TIIPT and SSIPT
                A query is used to access   TIIPT Monthly and           are combined to                 SSIPT Monthly        Brio is used to access
                 ad hoc reporting via       FYTD Reports are           calculate the initial          and FYTD Reports        ad hoc reporting via
               the TIIPT template and           generated .              disability claims              are generated .       the SSIPT template
                        rules .                                         processing time                                             and rules .
                                                                             (days ).



                                                                SSA Intranet site update monthly
                                                                  with Average processing time
                                                                for initial disability claims to be
                                                                 reported in the Performance and
                                                                   Accountability Report (PAR ).




Performance Indicator Audit: Claims Processing (A-15-06-16109)                                                                                             C-2
Average Processing Time for Initial Disability Claims
• Claimant contacts SSA via Field Office (FO) visit, mail, phone call to FO or Tele-
  Service Center (TSC), or online via the Internet Social Security Benefit Application
  (ISBA).
• Can the FO personnel interview the claimant today?
           o No - Set up a teleclaim or in-office appointment.
           o Yes - FO interviews claimant via teleclaim or in-office appointment, first
               verifying non-medical issues.
• Is claimant potentially eligible for Title II and/or Title XVI?
           o No - Does claimant insist on filing?
                    No - STOP
           o Yes - Establish Disability Insurance (DI) application using Modernized
               Claims System (MCS) or Modernized Supplemental Security Income
               Claims System (MSSICS) or SSA Claims Control System (SSACCS). This
               is the application date or start date.
• Review non-medical issues.
• Determine effective filing date. This may also be the start date if it is earlier than the
  application date.
• If possible, make and enter non-medical decision into MCS, MSSICS or SSACCS.
• Is this a non-medical denial?
           o No - Create medical folder with Form SSA-831.
           o Yes - A. Adjudicate the non-medical portion of the claim via MCS or
               MSSICS.
• Send folder to the Disability Determination Service (DDS).
• DDS inputs receipt of case in National Disability Determination Services System
  (NDDSS).
• NDDSS receives claimant information from MCS, MSSICS or SSACCS.
• DDS gathers and reviews medical evidence to make a medical determination.
• If medical information is not sufficient, a consultative examination is scheduled.
• DDS makes a decision and enters the medical information in NDDSS.
• DDS inputs medical decision as reported on Form SSA-831.
• Claim is approved or denied. Medical portion of the decision is adjudicated. This is
  the end date.
• Case is closed in NDDSS, which interfaces with MCS, MSSICS, and SSACCS.
• Folder is sent back to FO.
• Did FO input the non-medical determination prior to sending folder to DDS?
           o No - A - Adjudicate non-medical portion of claim via MCS or MSSICS.
           o Yes - Folder is filed.
• B (Title II)
• C (Title XVI)
• B (Title II) - MCS updates Workload Management System (WMS). SSA-1418
  (screen) updates SSACCS with claim information.
• Data is fed to the Title II Operational Datastore (TII ODS).
• Data flows to the Social Security Unified Measurement System (SUMS).
• Title II Processing Time (TIIPT) is stored in the SUMS Data Warehouse.


Performance Indicator Audit: Claims Processing (A-15-06-16109)                           C-3
•   A query is used to access ad hoc reporting via the TIIPT template and rules.
•   TIIPT Monthly and FYTD Reports are generated.
•   C (Title XVI) - Supplemental Security Record (SSR) is updated with an initial
    determination date and claim data is routed to SSI Exception Control System.
•   Data is fed to the Title XVI Operational Datastore (TXVI ODS).
•   Data flows to the Social Security Unified Measurement System (SUMS).
•   SSI Processing Time (SSIPT) is stored in the SUMS Data Warehouse.
•   Brio is used to access ad hoc reporting via the SSIPT template and rules.
•   SSIPT Monthly and FYTD Reports are generated.
•   TIIPT and SSIPT are combined to calculate the initial disability claims processing
    time (days).
•   SSA Intranet site updated monthly with Average processing time for initial
    disability claims to be reported in the Performance and Accountability Report
    (PAR).




Performance Indicator Audit: Claims Processing (A-15-06-16109)                           C-4
Flowchart of Number of Initial Disability Claims Processed by the
Disability Determination Services
                              Claimant contacts SSA
                                                                                                               FO interviews
                             via Field Office (FO) visit,
                                                                                                                claimant via               Is claimant
                             mail, phone call to FO or                 Can the FO
                                                                                                              teleclaim or in-         potentially eligible                  Does claimant
          START                 Tele-Service Center                personnel interview           Yes                                                              No                               No           STOP
                                                                                                           office appointment,          for Title II and/or                 insist on filing?
                               (TSC) or online via the             the claimant today?
                                                                                                           first verifying non-             Title XVI?
                              Internet Social Security
                                                                                                             medical issues.
                                 Application (ISBA).

                                                                           No
                                                                                                                                                               Yes
                                                                    Set up a teleclaim
                                                                        or in-office
                                                                      appointment.




                                                                                                Yes

       Establish Disability Insurance (DI)
                                                                                                                            If possible, make and
     application using Modernized Claims
                                                                                                Determine                      enter non-medical
        System (MCS) or Modernized                           Review non-                                                                                        Is this a non-
                                                                                              effective filing              decision into MCS or                                          Yes    Claim is denied.
     Supplemental Security Income Claims                    medical issues.                                                                                    medical denial?
                                                                                                   date.                          MSSICS or
       System (MSSICS) or SSA Claims
                                                                                                                                   SSACCS.
          Control System (SSACCS).


                                                                                         No


                                                                                                                                                                                                          If medical
                                                                           DDS inputs receipt of                        NDDSS receives                         DDS gathers and
                                                                                                                                                                                                     information is not
      Create medical                                                         case in National                               claimant                            reviews medical
                                          Send folder to                                                                                                                                                sufficient, a
     folder with Form                                                     Disability Determination                      information from                       evidence in order
                                             DDS.                                                                                                                                                       Consultative
         SSA-831.                                                            Services System                            MCS or MSSICS                         to make a medical
                                                                                                                                                                                                       Examination is
                                                                                 (NDDSS).                                 or SSACCS.                             determination.
                                                                                                                                                                                                         scheduled.




                                                                                                                                                                                                Year-end SAOR report number
                             Claim is approved                                      NDDSS interfaces with                DIODS counts the number of                    Staff reviews             is recorded in the PAR for the
       DDS inputs
                             or denied. Medical                                     Disability Operational             processed initial disability claims             weekly SAOR              performance indicator Number
     medical decision                                       Case is closed in
                                portion of the                                      Datastore (DIODS) to                by DDS on a weekly basis for                 report to identify            of initial disability claims
      as reported on                                           NDDSS.
                                  decision is                                        provide processed                  reporting on the State Agency                 anomalies and              processed by the Disability
     Form SSA-831.
                                 adjudicated.                                           claims data.                     Operations Report (SAOR).                    corrects errors.              Determination Services
                                                                                                                                                                                                              (DDS).




Performance Indicator Audit: Claims Processing (A-15-06-16109)                                                                                                                                                                    C-5
Number of Initial Disability Claims Processed by the Disability Determination
Services (DDS)
• Claimant contacts SSA via Field Office (FO) visit, mail, phone call to FO or Tele-
   Service Center (TSC), or online via the Internet Social Security Benefit Application
   (ISBA).
• Can the FO personnel interview the claimant today?
          o No - Set up a teleclaim or in-office appointment.
          o Yes - FO interviews claimant via teleclaim or in-office appointment, first
              verifying non-medical issues.
• Is claimant potentially eligible for Title II and/or Title XVI?
          o No - Does claimant insist on filing?
                   No - STOP
          o Yes - Establish Disability Insurance (DI) application using Modernized
              Claims System (MCS) or Modernized Supplemental Security Income
              Claims System (MSSICS) or SSA Claims Control System (SSACCS).
• Review non-medical issues.
• Determine effective filing date.
• If possible, make and enter non-medical decision into MCS, MSSICS or SSACCS.
• Is this a non-medical denial?
          o Yes - Claim is denied.
          o No - Create medical folder with Form SSA-831.
• Send folder to the Disability Determination Service (DDS).
• DDS inputs receipt of case in National Disability Determination Services System
   (NDDSS).
• NDDSS receives claimant information from MCS, MSSICS or SSACCS.
• DDS gathers and reviews medical evidence to make a medical determination.
• If medical information is not sufficient, a Consultative Examination is scheduled.
• DDS inputs medical decision as reported on Form SSA-831.
• Claim is approved or denied. Medical portion of the decision is adjudicated.
• Case is closed in NDDSS.
• NDDSS interfaces with Disability Operational Datastore (DIODS) to provide
   processed claims data.
• DIODS counts the number of processed initial disability claims by DDS on a weekly
   basis for reporting on the State Agency Operations Report (SAOR).
• Staff reviews weekly SAOR report to identify anomalies and corrects errors.
• Year-end SAOR report number is recorded in the PAR for the performance indicator
   Number of initial disability claims processed by the DDS.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                      C-6
                                                                 Appendix D
Agency Comments




Performance Indicator Audit: Claims Processing (A-15-06-16109)
                                         SOCIAL SECURITY
MEMORANDUM


Date:      February 16, 2007                                                     Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye       /s/

Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit: Claims
           Processing” (A-15-06-16109)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Claims Processing (A-15-06-16109)                              D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT
“PERFORMANCE INDICATOR AUDIT: CLAIMS PROCESSING” (A-15-06-16109)


Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
efforts to assist us in evaluating our performance data and we are committed to ensuring that our
performance data are accurate and reliable. We are disappointed with the way this report
characterizes the reliability and accuracy of these two indicators given the fact that in a “real
time” environment Pricewaterhouse Coopers (PwC) was able to witness the calculations and
validate their accuracy.

As a mutually agreed upon compromise and solution to not maintaining data, the Social Security
Administration (SSA) and PwC agreed to the “real-time” audit process for some fiscal year 2006
reviews. We successfully worked with PwC to develop a process by which they recalculated and
validated the data used to report on these measures and determined it was accurate. However, on
page 3, while summarizing the results of the review, the report focuses on issues related to
internal controls, data reliability, audit trail and personnel access to data. It is silent on the fact
that the auditors were able to calculate or recalculate the indicator results and found no
“exceptions” related to the disclosure of information or meaningfulness of the indicator. While
the findings are reported later under each specific indicator measured, omitting that information
from the “summary” gives the reader the impression that there is something wrong with our data,
which is clearly not the case since PwC was able to recalculate the data.

Specifically, the Office of Management and Budget's (OMB) Circular A-11, section 230.2e
states "Performance data need not be perfect to be reliable, particularly if the cost and effort to
secure the best performance data will exceed the value of any data so obtained." The report
states that “the DIODS data used to classify the disability claims as clearances was not archived
and maintained in accordance with revised OMB Circular A-123, Management’s Responsibility
for Internal Control, Appendix A: Internal Control Over Financial Reporting.” We disagree
with this statement. OMB Circular A-123 states that, “Effective internal control over financial
reporting provides reasonable assurance that misstatements, losses, or noncompliance with
applicable laws and regulations, material in relation to financial reports, would be prevented or
detected.” In numerous other references throughout Circular A-123, the objective of internal
control over financial reporting is to provide “reasonable assurance.” The mutually agreed
upon methodology for the real time audit resulted in PwC being able to “gain comfort around the
accuracy of the reported results.” The comfort PwC was able to gain should provide reasonable
assurance. As indicated in our response below, the specific recommendations in the OMB
Circular A-11 directive apply to both of these indicators. The Circular A-123 guidance for
reasonable assurance and the Circular A-11 guidance for cost-effective performance data are
complimentary and when considered together with PwC’s comfort around the accuracy of the
reported results, should eliminate the inclusion of any reference to detailed data not being
maintained.

Our responses to the specific recommendations are provided below.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                                     D-2
Recommendation 1

SSA should ensure personnel do not have the ability to directly modify, create or delete the
datasets used to calculate the results of these indicators.

Response

We agree. We have already taken steps to address the issue. The draft report accurately states
that this access was removed during the course of the audit.


Recommendation 2

SSA should maintain an audit trail for the Social Security Administration Claims Control System
(SSACCS) that captures the user ID, terminal, date and time the transaction was processed.
Policies and procedures should be implemented requiring a review of the audit trail for
inappropriate access or processing of transactions.

Response

We disagree. SSACCS will be phased out; therefore it is cost-prohibitive to maintain an audit
trail for this system’s transactions. The OMB's Circular A-11, section 230.2e states,
"Performance data need not be perfect to be reliable, particularly if the cost and effort to secure
the best performance data will exceed the value of any data so obtained." We believe this
directive applies in this situation.

Recommendation 3

Specific to the performance indicator, “Average Processing Time for Initial Disability Claims,"
that SSA should ensure that the Social Security Unified Measurement System (SUMS) Data
Warehouse UNIX system is configured to be in compliance with the SSA UNIX Risk Model and
Government guidelines from National Institute of Standards and Technology (NIST) and
Defense Information Security Agency (DISA). SSA should also formalize the configuration
standard for the Oracle database environment and ensure that this standard complies with the
SSA Security Handbook, Government guidelines, and is officially approved by SSA
management.

Response

We agree. We have taken steps to correct the SUMS UNIX issues. Concerning the Oracle
database environment, a new Oracle Risk Model has been developed using DISA Security
Technical Implementation Guides. A monitoring process is being developed.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                                   D-3
Recommendation 4

Specific to the performance indicator, “Number of Initial Disability Claims Processed by the
Disability Determination Service,” that SSA maintain the detailed data used to calculate the
performance indicator results that are reported in the Accountability Report.

Response

We disagree. As noted in the report, there are capacity issues that prevent SSA from archiving
all detail data in the Disability Operational Datastore. It is also cost-prohibitive to maintain the
detail-level data required to recalculate performance results for a full year for this measure. As
noted above, SSA and PwC agreed to the “real-time” audit process as a solution to not
maintaining this data. In addition, SSA has complied with guidance in OMB Circulars A-11 and
123 that address management’s responsibility for internal control. In summary, since this audit
was conducted in the “real-time” format, this should not be a finding as we successfully worked
with PwC to develop a process by which they could and did, conclude that the summary data
were accurate.




Performance Indicator Audit: Claims Processing (A-15-06-16109)                                   D-4
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
